      DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                           Washington, D.C. 20201




March 9, 2010

TO:             Thomas R. Frieden, M.D., M.P.H.
                Director
                Centers for Disease Control and Prevention


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Centers for Disease Control and Prevention: Internal Control Review of the
                Process for Awarding American Recovery and Reinvestment Act Funds for
                Healthcare-Associated Infections Programs (A-04-09-01064)


The attached final report provides the results of our review of internal controls over the process
for awarding American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), funds at the Centers for Disease Control and Prevention (CDC). This review was part of
the Office of Inspector General’s assessment of whether the Department of Health & Human
Services is using Recovery Act funds in accordance with legal and administrative requirements
and is meeting the accountability objectives defined by the Office of Management and Budget.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

Our objective was to assess the internal controls the CDC has in place over the grants-award
process used to award Recovery Act funds and to determine whether the controls have been
suitably designed.

The internal controls over the grant-award process used to award Recovery Act funds, as
described by CDC management, are suitably designed to provide reasonable assurance that the
specified internal control objectives would be achieved if the described internal controls were
complied with satisfactorily and applied as designed. However, we did not perform procedures
Page 2 – Thomas R. Frieden, M.D., Ph.D.

to determine the operating effectiveness of these internal controls. Accordingly, we express no
opinion on the operating effectiveness of any aspect of CDC’s internal controls over the grant-
award process used to award Recovery Act funds, individually or in the aggregate.

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of Inspector General reports
generally are made available to the public to the extent that information in the report is not
subject to exemptions in the Act. Accordingly, the final report will be posted on the Internet at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report number
A-04-09-01064 in all correspondence.


Attachment
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




CENTERS FOR DISEASE CONTROL AND
 PREVENTION: INTERNAL CONTROL
   REVIEW OF THE PROCESS FOR
AWARDING AMERICAN RECOVERY AND
  REINVESTMENT ACT FUNDS FOR
    HEALTHCARE-ASSOCIATED
     INFECTIONS PROGRAMS


                        Daniel R. Levinson
                         Inspector General

                           March 2010
                          A-04-09-01064
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

Every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for the Department of Health and
Human Services and its agencies are:

      Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
       manner.

      Recovery Act funds are transparent to the public, and the public benefits of these funds
       are reported clearly, accurately, and in a timely manner.

      Recovery Act funds are used for authorized purposes and every step is taken to prevent
       instances of fraud, error, and abuse.

      Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

      Projects funded under the Recovery Act ensure program goals are achieved, including
       specific program outcomes and improved results on broad economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Recovery Act Funding for the Healthcare-Associated Infections Program

The Recovery Act provided $40 million to the Centers for Disease Control and Prevention
(CDC) to help stimulate the economy through the execution and implementation of strategies to
reduce healthcare-associated infection (HAI). CDC obligated 99.5 percent of the Recovery Act
funds to States in the fiscal year that ended September 30, 2009, using existing cooperative
agreements within the Epidemiology and Laboratory Capacity for Infectious Disease Program
and the Emerging Infections Program.

HAIs are infections that patients acquire while receiving treatment for medical or surgical
conditions. HAIs occur in all settings of care, including hospitals, same-day surgical centers,


                                                 i
healthcare clinics, nursing homes, and rehabilitation facilities. HAIs are associated with a
variety of causes, including the use of medical devices such as catheters and ventilators,
complications following surgical procedures, transmission between patients and healthcare
workers, and antibiotic overuse.

CDC competitively awarded funding to eligible State health departments to support efforts to
prevent HAIs. Those efforts included supporting surveillance and research, improving quality
for patients, encouraging collaboration, training the workforce in HAI prevention, and measuring
outcomes. CDC used existing competitive cooperative agreement programs to make
supplemental competitive awards to State health departments to carry out HAI activities.

OBJECTIVE

Our objective was to assess the internal controls CDC has in place over the grant-award process
used to award Recovery Act funds and to determine whether the controls have been suitably
designed.

RESULTS OF REVIEW

The internal controls over the grant-award process used to award Recovery Act funds, as
described by CDC management, are suitably designed to provide reasonable assurance that the
specified internal control objectives would be achieved if the described internal controls were
complied with satisfactorily and applied as designed.

This report is intended to provide a sufficient understanding of CDC’s grant process for
awarding Recovery Act funds to grantees as it pertains to internal control objectives in the
following internal control areas:

      authorization and approval: transactions and other significant events should be
       authorized and executed only by persons acting within the scope of their authority;

      accuracy, completeness, and validity: all transactions should be consistent with the
       originating data and fairly represent the economic events that actually occurred, and no
       valid transactions should be omitted;

      physical safeguards and security: physical controls need to be established to secure and
       safeguard vulnerable assets and to limit access to resources and records to authorized
       individuals;

      error handling: errors detected at any stage of processing should receive prompt
       corrective action and be reported to the appropriate level of management; and

      segregation of duties: key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud.




                                                ii
                                                  TABLE OF CONTENTS
                                                                                                                               Page

INTRODUCTION.................................................................................................................1

          BACKGROUND ........................................................................................................1
              Recovery Act Requirements ...........................................................................1
              Centers for Disease Control and Prevention...................................................1
              Recovery Act Funding for the Healthcare-Associated Infections Program ...2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................3
               Objective .........................................................................................................3
               Scope...............................................................................................................3
               Methodology ...................................................................................................3

RESULTS OF REVIEW ......................................................................................................4

          AUTHORIZATION AND APPROVAL....................................................................4
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Eligibility Requirements Are in Accordance
                With Laws, Regulations, Recovery Act Guidance, and Agency Policy......4
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Information and Methods Used to Publicize the
                Program Are in Accordance With Laws, Regulations, Recovery Act
                Guidance, and Agency Policy......................................................................5
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That Grant Application Processing Procedures Are
                Established and in Accordance With Laws, Regulations, Recovery
                Act Guidance, and Agency Policy ...............................................................5
              Internal Control Objective 4: Internal Controls Provide Reasonable
                Assurance That Grantee Procedures for Control, Use, and Reporting
                of Grant-Funded Operations Are in Accordance With Laws,
                Regulations, Recovery Act Guidance, and Agency Policy..........................6
              Internal Control Objective 5: Internal Controls Provide Reasonable
                Assurance That Grant Requirements Are Noted and in Place.....................7

          ACCURACY, COMPLETENESS AND VALIDITY................................................7
              Internal Control Objective 1: Internal Controls Provide Reasonable
                Assurance That Grant Awards and Program Results Are
                in Accordance With Laws, Regulations and Agency Policy .......................7
              Internal Control Objective 2: Internal Controls Provide Reasonable
                Assurance That Program Objectives Are Achieved in an Economical
                and Efficient Manner ...................................................................................8
              Internal Control Objective 3: Internal Controls Provide Reasonable
                Assurance That the Agency Has Mechanisms in Place To Timely
                Award Grant Funds......................................................................................9



                                                                    iii
         Internal Control Objective 4: Internal Controls Provide Reasonable
           Assurance That Only Those Grant Requests That Meet the Eligibility
           Requirements Are Approved .......................................................................9
         Internal Control Objective 5: Internal Controls Provide Reasonable
           Assurance That Grantee Records Are Periodically Substantiated
           and Evaluated...............................................................................................9

PHYSICAL SAFEGUARDS AND SECURITY......................................................10
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Access to Grant and Accounting Records, Critical
       Forms, Processing Areas, and Processing Procedures Are Permitted
       Only in Accordance With Policy ...............................................................10

ERROR HANDLING ...............................................................................................10
    Internal Control Objective 1: Internal Controls Provide Reasonable
      Assurance That the Centers for Disease Control and Prevention
      Accurately and Promptly Classifies, Summarizes, and Reports
      Adjustments to Grant Application Information and Records ....................10

SEGREGATION OF DUTIES .................................................................................10
     Internal Control Objective 1: Internal Controls Provide Reasonable
       Assurance That Opportunities Are Reduced for an Individual To
       Cause and Conceal Errors..........................................................................10




                                                        iv
                                               INTRODUCTION

BACKGROUND

Recovery Act Requirements

The American Recovery and Reinvestment Act of 2009, P.L No. 111-5 (Recovery Act), was
signed into law by President Obama on February 17, 2009. The Recovery Act includes measures
to modernize our nation’s infrastructure, enhance energy independence, expand educational
opportunities, preserve and improve affordable health care, provide tax relief, and protect those
in greatest need.

According to the Department of Health and Human Services (HHS) Recovery Act website, 1
every taxpayer dollar spent on the economic recovery must be subject to unprecedented levels of
transparency and accountability. The five crucial objectives for HHS and its agencies are:

          Recovery Act funds are awarded and distributed in a prompt, fair, and reasonable
           manner.

          Recovery Act funds are transparent to the public, and the public benefits of these funds are
           reported clearly, accurately, and in a timely manner.

          Recovery Act funds are used for authorized purposes and every step is taken to prevent
           instances of fraud, error, and abuse.

          Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.

          Projects funded under the Recovery Act ensure program goals are achieved, including
           specific program outcomes and improved results on broader economic indicators.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. An Office of Management and Budget (OMB) memorandum (April 3, 2009)
updated initial implementing Recovery Act guidance (February 18, 2009) and requires that all
Federal agencies and departments receiving Recovery Act funds must maintain strong internal
controls and implement appropriate oversight mechanisms and other approaches to meet the
accountability objectives of the Recovery Act.

Centers for Disease Control and Prevention

The Centers for Disease Control and Prevention (CDC) is committed to reducing the health and
economic consequences of the leading causes of death and disability, thereby ensuring a long,
productive, healthy life for all people. Its mission is to collaborate to create the expertise,
information, and tools that people and communities need to protect their health through health
promotion; prevention of disease, injury, and disability; and preparedness for new health threats.

1
    Available online at http://www.hhs.gov/recovery/reports/index.html. Accessed on October 29, 2009.


                                                          1
CDC includes 16 Centers, Institutes, and Offices (CIO). Each has its own mission and functions
and is responsible for determining its needs. Based on those needs, the CIOs are responsible for
initiating requests for assistance in the grants process.

Procurement and Grants Office

The CDC Procurement and Grants Office is responsible for the procurement of services,
equipment, commodities, construction, and architectural and engineering services for CDC
programs. The Procurement and Grants Office provides guidance relating to laws, regulations,
and policies pertinent to the administration of CDC grants. The CIOs must adhere to this
guidance and determine which grants and cooperative agreements are necessary to fulfill CDC’s
mission as established by Congress.

Grants and Cooperative Agreements

Grants and cooperative agreements are forms of financial assistance to organizations to support a
public purpose. A grant requires the completion of program activities by the funded organization
only. A cooperative agreement includes substantial participation on the part of the awarding
agency.

CDC grants and cooperative agreements are either discretionary or mandatory. These two types
of grants can be further classified as either research or nonresearch awards and can be either new
awards or continuation awards. Both grants and cooperative agreements follow the same award
process, which is referred to as the grant-award process in this report.

Recovery Act Funding for the Healthcare-Associated Infections Program

The Recovery Act provided $40 million to CDC to help stimulate the economy through the
execution and implementation of strategies to reduce healthcare-associated infection (HAI).
CDC obligated 99.5 percent of the Recovery Act funds to States in the fiscal year that ended
September 30, 2009, using existing cooperative agreements within the Epidemiology and
Laboratory Capacity for Infectious Disease Program and the Emerging Infections Program.

HAIs are infections that patients acquire while receiving treatment for medical or surgical
conditions. HAIs occur in all settings of care, including hospitals, same-day surgical centers,
healthcare clinics, nursing homes, and rehabilitation facilities. HAIs are associated with a
variety of causes, including the use of medical devices such as catheters and ventilators,
complications following surgical procedures, transmission between patients and healthcare
workers, and antibiotic overuse.

CDC competitively awarded funding to eligible State health departments to support efforts to
prevent HAIs. Those efforts included supporting surveillance and research, improving quality
for patients, encouraging collaboration, training the workforce in HAI prevention, and measuring
outcomes. CDC used existing competitive cooperative agreement programs to make
supplemental competitive awards to State health departments to carry out HAI activities.




                                                 2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess the internal controls CDC has in place over the grant-award process
used to award Recovery Act funds and to determine whether the controls have been suitably
designed.

Scope

We assessed CDC’s internal controls over the grant-award process used to award Recovery Act
funds for HAIs. Our assessment was limited to determining whether existing internal controls
adequately achieved the internal control objectives for: (1) authorization; (2) accuracy,
completeness, and validity; (3) physical safeguards and security; (4) error handling; and
(5) segregation of duties. We did not perform procedures to determine the operating
effectiveness of these internal controls. Accordingly, we express no opinion on the operating
effectiveness of any aspect of CDC’s internal controls over the grant-award process used to
award Recovery Act funds, individually or in the aggregate.

We performed fieldwork at the CDC Procurement and Grants Office in Atlanta, Georgia, from
May through July 2009.

Methodology

The internal control environment represents the collective product of a number of elements in
establishing, enhancing, or mitigating the effectiveness of specific policies and procedures. To
gain an understanding of CDC’s internal control environment, we:

       reviewed relevant Federal laws and regulations, including Recovery Act guidance issued
        by OMB that CDC must follow for awarding grants;

       reviewed CDC’s organizational structure, including segregation of functional
        responsibilities and operating manuals;

       interviewed CDC management and operations personnel responsible for developing,
        assuring adherence to, and applying internal controls; and

       reviewed the grant-award process for three grants, one funded with Recovery Act funds
        and two without.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.



                                                3
RESULTS OF REVIEW

The internal controls over the grant-award process used to award Recovery Act funds, as
described by CDC management, are suitably designed to provide reasonable assurance that the
specified internal control objectives would be achieved if the described internal controls were
complied with satisfactorily and applied as designed.

This report provides a sufficient understanding of CDC’s grant process for awarding Recovery
Act funds to grantees as it pertains to internal control objectives in the following internal control
areas:

          authorization and approval: transactions and other significant events should be
           authorized and executed only by persons acting within the scope of their authority;

          accuracy, completeness, and validity: all transactions should be consistent with the
           originating data and fairly represent the economic events that actually occurred, and no
           valid transactions should be omitted;

          physical safeguards and security: physical controls need to be established to secure and
           safeguard vulnerable assets and to limit access to resources and records to authorized
           individuals;

          error handling: errors detected at any stage of processing should receive prompt
           corrective action and be reported to the appropriate level of management; and

          segregation of duties: key duties and responsibilities need to be divided or segregated
           among different people to reduce the risk of error or fraud.

AUTHORIZATION AND APPROVAL

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Eligibility Requirements Are in Accordance With Laws, Regulations, Recovery Act
Guidance, and Agency Policy

         According to CDC policy, the Funding Opportunity Announcement (FOA) is prepared by
          each CIO based on program needs. Within Section III of each FOA, applicants can find
          eligibility information.

         CDC requires the CIO to assemble a committee to conduct one of two types of reviews of
          the applications, based on the evaluation criteria stated in the FOA:

           o Objective Review: This review is used for all nonresearch FOAs and is performed by
             CDC employees and subject-matter experts who are not employees of CDC. The
             committee membership must comply with the “Awarding Agency Grants
             Administration Manual,” HHS “Grants Policy Statement,” and CDC guidance.



                                                    4
       o Peer Review: This review is used for all research FOAs and is performed by subject-
         matter experts who are not CDC or Federal employees. One of the objectives of both
         the Objective and Peer reviews is to determine the eligibility of all submitted
         applications.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Information and Methods Used To Publicize the Program Are in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

      OMB implementation guidance for the Recovery Act requires Federal agencies to post
       information on Recovery.gov on the funding notifications made for all award types.
       Agencies must submit on Recovery.gov a Funding Notification Report for all funding
       included in their communications. Agencies must also submit information on significant
       solicitations or other actions that will be publically available through other information
       sources, including publication on the agency Web site. CDC published the FOA on the
       CDC’s Web site and on Grants.gov. CDC also made information on the funding
       notifications available on Recovery.gov with a link to CDC’s Web site.

      CDC published Frequently Asked Questions specifically for its Web page “Recovery
       Act: Healthcare-Associated Infections.” The page provided prospective grantees with
       information such as how to access applications for the Emerging Infections Program or
       Epidemiology and Laboratory Capacity for Infectious Diseases FOAs and whether the
       funds could be used for hiring new staff for activities supported by the Recovery Act.

      OMB implementation guidance requires prominent labels and tags in funding opportunity
       synopses, FOAs, and award notices that clearly distinguish the awards as “Recovery Act”
       actions. On the Recovery Act FOAs, the FOA numbers specifically include ARRA and
       the fiscal year.

Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That
Grant Application Processing Procedures Are Established and in Accordance With Laws,
Regulations, Recovery Act Guidance, and Agency Policy

      As required by HHS “Grants Policy Statement,” part 1, all applications under
       discretionary grant programs are subject to an objective review, and CDC’s policy
       follows this policy. At CDC, all research FOAs go through a peer review, and all
       nonresearch FOAs go through an objective review. For both types of reviews, the Grants
       Management Officer and the CIO review the applications for eligibility and
       responsiveness to the FOA. In addition, the Grants Management Officer and the CIO
       create an eligibility and responsiveness checklist based on criteria stated in the FOA. An
       eligibility determination involves reviewing the applications to verify whether they are
       complete, conform to administrative requirements, and contain the information necessary
       for a detailed review of research and nonresearch projects. A responsiveness
       determination is a validation that the applicant has provided information that addresses
       the criteria as stated in the FOA.



                                                5
       The HHS “Awarding Agency Grants Administration Manual,” chapter 2.04.104C,
        specifies the requirements for objective review of applications. It specifies the types of
        applications subject to objective review and those that are exempt from the review. It
        also indicates the associated responsibilities and authorities and establishes the
        requirements of the objective review process, such as independence of reviewers,
        avoidance of potential or actual conflicts of interest, and documentation of review results.
        CDC’s policy is to follow these requirements for both objective and peer reviews of
        applications.

       CDC and the HHS “Awarding Agency Grants Administration Manual” require CDC to
        notify the congressional liaison 72 hours before the award is officially made. The
        Technical Information Management Section, through Information for Management,
        Planning, Analysis, and Coordination (IMPAC) II, 2 sends the notification electronically
        to the liaison’s office. The liaison then notifies Congress. In budget discussions with
        grantees, CDC asks them not to announce the grant until Congress has been notified and
        the grantees have received the official Notice of Award.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That
Grantee Procedures for Reporting of Grant-Funded Operations Are in Accordance With
Laws, Regulations, Recovery Act Guidance, and Agency Policy

       CDC policy requires grantees to adhere to the Recovery Act-specific reporting
        requirements as identified in its FOA and Web site, which is set forth in section 1512 of
        the Recovery Act. Specifically, section 1512 states that no later than 10 days after the
        end of each calendar quarter, recipients must submit quarterly reports to CDC and HHS
        that will be posted for public access at Recovery.gov. These quarterly reports must
        contain the following information:

        o the total amount of Recovery Act funds under the award;

        o the amount of Recovery Act funds received under the award that were obligated and
          expended for projects and activities;

        o the amount of unobligated Recovery Act funds under the award; and

        o a detailed list of all projects and activities for which Recovery Act funds under the
          award were obligated and expended, including detailed information on any subawards
          (subcontracts or subgrants) made by the recipient.




2
 IMPAC II is an online computer-based information system that contains application and award information on HHS
programs.


                                                      6
Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grant Requirements Are Noted and in Place

       CDC requires the individual CIOs to prepare the FOA. After the CIO submits the FOA
        to the Procurement and Grants Office, the Technical Information Management Section
        uploads the FOA into the Comments Communication Document tool where various CDC
        offices or officials review and provide comments on the FOA. 3 The CIO point of contact
        incorporates the various CDC offices’ comments into the FOA. The Grants Management
        Officer reviews, makes recommendations, and approves the FOA before it is posted on
        Grants.gov.

       CDC policy requires applicants to submit a Letter of Intent only if it is required and
        stated in the FOA. The purpose of the Letter of Intent is to determine eligibility or
        programmatic relevance. The CIO and Grants Management Officer evaluate the Letter of
        Intent for completeness and responsiveness based on the criteria stated in the FOA.

       CDC policy requires the CIO and the Grants Management Specialist to screen the
        submitted applications for eligibility and responsiveness. Once they determine that the
        applicant is eligible, the application then goes through a review process. A committee,
        established by the CIO and approved by the Grants Management Officer, evaluates the
        criteria as published in the FOA and makes a funding recommendation, which needs the
        CIO director’s approval.

       CDC requires the Financial Management Office to approve the funding commitment and
        to ensure the funds are available. The CIO submits the funding package to the Grants
        Management Officer, who is responsible for reviewing and approving the funding list.

       CDC policy states that before an award is granted, three final approvals are necessary in
        the following order: the CIO, the Financial Management Office, and the Grants
        Management Officer.

ACCURACY, COMPLETENESS, AND VALIDITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Grant Awards and Program Results Are in Accordance With Laws, Regulations, and
Agency Policy

       CDC and the HHS “Awarding Agency Grants Administration Manual” require that the
        Grants Management Officer be responsible for signing the Notice of Grant Award. The
        Grants Management Officer’s signature certifies that the selections for funding comply
        with the requirements of the FOA guidance, as well as applicable laws, regulations, and
        policies.


3
 Those offices or officers are the Office of General Counsel, Office of Public Health Research, Assistant Report
Clearance Officer, Human Subjects Review Coordinator, Office of Workforce Career Development, Executive
Secretariat, Office of Minority Health, Office of Women Health, and the Grants Management Specialist.


                                                         7
      CDC policy requires the CIO program staff to review committee results after application
       reviews, to apply funding preferences (if applicable as published in the FOA), and to send
       funding recommendations with supporting documentation through the CIO’s internal
       review process. The CIO sends the complete funding documents to the Grants
       Management Officer.

      CDC requires the review committee to score each approved application based on its
       assessment of the merits of the application as compared with the published FOA
       requirements and create a rank-order list. A Grants Management Specialist compares the
       review committee’s summary statement (containing a description of the proposed work,
       strengths and weaknesses of the application, and other relevant comments) with the
       funding document created by the CIO (containing scored applications and a funding
       memorandum with the CIO funding recommendations) to verify committee approval,
       ensure an objective review was performed, and ensure the CIO justified out-of-rank
       awards. This justification is kept in the grantee’s award folder.

      The CIO sponsoring the award is responsible for setting up and carrying out reviews for
       its programs’ applications. The Grants Management Specialist or Grants Management
       Officer attends reviews in an oversight capacity to ensure there are no conflicts of interest
       between reviewers and the applicant organization and to ensure that the proceedings are
       carried out in accordance with applicable CDC policy.

Internal Control Objective 2: Internal Controls Provide Reasonable Assurance That
Program Objectives Are Achieved in an Economical and Efficient Manner

      CDC requires a Grants Management Specialist to perform a budget or cost analysis of
       proposed grant budgets that have been recommended for award to determine the
       necessity, reasonableness, allowability, and allocability of the costs proposed in the
       application budget and to ensure the budget is consistent with project needs and program
       requirements.

      CDC requires the Technical Information Management Section to upload the draft FOA
       and supporting documentation into the Comments Communication Document tool to
       electronically capture the FOA review process.

      The FOA provides a ceiling amount of funds available and the potential number of
       awards that are expected to be made within the published ceiling amount. CDC requires
       the CIO to make a funding recommendation that is within the FOA ceiling. The CIO
       funding recommendation is based on the output of the review committee, which
       determined the technical merit of each application and listed them in rank order. Grantee
       selection and funding recommendations proceed down the rank-order listing until the
       ceiling amount listed in the FOA is reached.




                                                 8
Internal Control Objective 3: Internal Controls Provide Reasonable Assurance That the
Agency Has Mechanisms in Place To Timely Award Grant Funds

      CDC requires the Technical Information Management Section to use email to notify the
       various CDC offices that the draft FOA is available for their review, comments, and
       recommendations. The standard time for the reviewing offices to provide comments is
       21 calendar days.

      CDC requires the CDC Procurement and Grant Office to have a process that charts the
       timeline for individual FOA’s from submission to publication based on 49 business days.
       The Grants Management Specialist or Grants Management Officer is responsible for
       monitoring this process.

      The CDC Procurement and Grants Office is hiring additional staff to assist in the timely
       award of Recovery Act funds.

Internal Control Objective 4: Internal Controls Provide Reasonable Assurance That Only
Those Grant Requests That Meet the Eligibility Requirements Are Approved

      As required by HHS “Grants Policy Statement,” part 1, and CDC requirements, the
       Grants Management Officer, in conjunction with the CIO, must review all applications
       for eligibility using an eligibility checklist based on criteria stated in the FOA. All
       applications are reviewed to determine whether they are complete, conform to
       administrative requirements, and contain the information necessary for a detailed review.
       Ultimately, the Grants Management Officer is responsible for making the determination
       of eligibility.

      The CIO prepares the FOA based on program needs and includes a description of the
       various programs and proposed activities, as required by CDC. Before submission to the
       various offices for their review, the CIO is responsible for reviewing the FOA to verify
       the eligibility requirements. This process is required before the FOA is forwarded to the
       Grants Management Officer for final approval.

Internal Control Objective 5: Internal Controls Provide Reasonable Assurance That
Grantee Records Are Periodically Substantiated and Evaluated

      The CDC Procurement and Grants Office considers those organizations that are
       inexperienced in managing Federal funds or have indeterminate solvency to be high-risk
       applicants. CDC requires the CDC Procurement and Grants Office to perform certain
       actions before awarding grant applications considered high risk, such as: (1) determining
       whether the applicant has a history of poor performance, (2) determining whether the
       grantee conforms to the terms and conditions of a previous award, and (3) reviewing the
       applicant’s financial statements for the past 2 years. If the applicant is deemed too high
       risk, the Procurement and Grants Office will not award Federal funding to that
       organization.



                                               9
      Pursuant to OMB Circular A-133 and 45 CFR § 74.26, grantees that expend more than
       $500,000 in a fiscal year are required to obtain audits of their organizations’ operations
       annually from private accounting firms. In addition, the Grants Management Officer and
       Grants Management Specialist perform periodic visits to selected grantee offices to
       review financial management systems and general grants management. Program office
       personnel typically accompany the Grants Management Officer and review the program
       activity.

PHYSICAL SAFEGUARDS AND SECURITY

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Access to Grant and Accounting Records, Critical Forms, Processing Areas, and
Processing Procedures Are Permitted Only in Accordance With Policy

      CDC policy requires CDC employees to wear badges to enter the offices within the
       Procurement and Grants Office. For example, to access the offices that house the
       preaward and award files, all authorized staff must wear an electronic badge that unlocks
       the doors.

ERROR HANDLING

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That the
Centers for Disease Control and Prevention Accurately and Promptly Classifies,
Summarizes, and Reports Adjustments to Grant Application Information and Records

      CDC policy requires the Grants Management Specialist to run a check in IMPAC II on
       funded applications before entering information to process the award. Running this
       check reveals three common errors: the Employee Identification Number is missing or
       incomplete in IMPAC II, the Institutional Profile File number is missing, or there is a “no
       funds” commitment error. Running this check helps avoid or reduce delays in award
       processing.

      The Technical Information Management Section confirms that applications are received
       by the required due date and time. If an application is late, the Grants Management
       Officer makes the determination to accept or return the application to the applicant based
       on criteria identified in the “Awarding Agency Grants Administration Manual” and CDC
       policy.

SEGREGATION OF DUTIES

Internal Control Objective 1: Internal Controls Provide Reasonable Assurance That
Opportunities Are Reduced for an Individual To Cause and Conceal Errors

      CDC requires an award to have three final approvals before it is considered valid. The
       approvals of the CIO, Financial Management Office, and Grants Management Officer are
       necessary before the grant award becomes an obligation. The approvals are all recorded


                                               10
   The CIO, Financial Management Office, and Grants Management Officer all play
    separate roles in the awards process. The CIO is responsible for checking the award
    amount and award accounting data for accuracy. The Financial Management Office
    reviews the accounting data for accuracy of Common Accounting Numbers and amounts
    to ensure obligations will not exceed commitments. The Grants Management Officer
    reviews, approves, and issues the Notification of Award.




                                         11
